TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                           Trends in Compliance Activities
                              Through Fiscal Year 2007



                                           April 18, 2008

                              Reference Number: 2008-30-095




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                     DEPARTMENT OF THE TREASURY
                                                           WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                     April 18, 2008


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                            Michael R. Phillips
                                  Deputy Inspector General for Audit

 SUBJECT:                         Final Audit Report – Trends in Compliance Activities Through
                                  Fiscal Year 2007 (Audit # 200830016)

 This report presents the results of our review of statistical information reflecting collection and
 examination activities within the Internal Revenue Service (IRS). The overall objective of this
 review was to provide statistical information and trend analyses of the data, as requested by the
 IRS Oversight Board.1

 Impact on the Taxpayer
 This report is a compilation of statistical information reported by the IRS. We did not verify or
 validate the authenticity or reliability of the data and, therefore, did not identify any specific
 impact on the taxpayer. However, continued effort to improve compliance is important to
 reducing the tax gap and maintaining the integrity of the voluntary tax compliance system.

 Synopsis
 Since Fiscal Year (FY) 2000, the IRS has reversed many of the downward trends in compliance
 activities that had occurred in prior years. In FY 2007, many of these activities continued to
 increase, even though Collection and Examination function field staffing decreased slightly.
 Both the Collection and Examination functions plan to hire enforcement personnel during
 FY 2008.



 1
     See Appendix IV for a glossary of terms used in this report.
                       Trends in Compliance Activities Through Fiscal Year 2007




Some of the positive changes noted in this report might be attributable to management emphasis
on the Collection and Examination functions’ programs. Over the last few years, the Small
Business/Self-Employed Division has implemented reengineering and organizational changes
that could have had a positive impact on enforcement efforts. In addition, both functions
continue to study ways to improve workload selection.
As our report points out, the IRS has reversed many of the enforcement declines in both the
Collection and Examination functions. Although the IRS has taken significant actions to
improve its enforcement efforts, the Government Accountability Office continued to include
enforcement of tax laws (collection of unpaid taxes and Earned Income Tax Credit
noncompliance) as one of the high-risk areas in the Federal Government in its most recent
(January 2007) update.2
In FY 2007, the level of compliance activities and the results obtained in many Collection
function areas showed a continued increase. The uses of liens and levies (collection enforcement
tools) continued to increase and reached the 10-year highs. The use of seizures also increased
but is unlikely to return to pre-1998 levels in the foreseeable future. Enforcement revenue
collected also continued to increase (to $59.2 billion), but the total dollar amount of uncollected
liabilities increased to the 10-year high of $290 billion. In addition, the gap between new
delinquent account receipts and closures had widened by almost 63 percent by the end of
FY 2007.
The Collection function collected almost 3 percent more than in FY 2006, but the number of
taxpayers (866,777) and the amount owed ($34.9 billion) on accounts in the Queue were each at
a 10-year high. One reason for the increase in the Queue this year is a rise in the number of
compliance assessments. While the Queue is a source of work for Collection function
employees, a significant number of accounts in the Queue might never be worked. In addition,
in FYs 2001 through 2007, the IRS removed almost 7.6 million accounts with balance-due
amounts totaling almost $31.2 billion from Collection function inventory. These accounts might
never be worked.
In September 2006, the IRS started assigning balance-due cases that otherwise would not have
been worked to private collection agencies. Through FY 2007, the IRS had received a total of
$26.6 million after expected commissions on cases assigned to the collection agencies, and
program costs totaled $69.8 million. More than 96 percent of the total revenue collected by the
agencies was received during FY 2007 alone. The program netted $11.3 million after subtraction
of expected commissions and program costs for the year. However, continued use of private
collection agencies is uncertain because some members of Congress want the IRS to discontinue
their use.



2
    HIGH-RISK SERIES – An Update (GAO-07-310, dated January 2007).
                                                                                                  2
                       Trends in Compliance Activities Through Fiscal Year 2007




During FY 2007, the overall percentage of tax returns examined increased by almost 9 percent,
even though the number of field Examination function personnel decreased by just over
4 percent. In addition, the overall percentage of tax returns examined was 2 percent higher than
in FY 1998.
Overall, the number of individual tax returns examined increased during FY 2007.3
Correspondence examinations accounted for 83 percent of the examinations of individuals.4
Because correspondence examinations are usually not as comprehensive as face-to-face
examinations, the impact on compliance might be limited. In addition, the dollar yield per hour
increased for individual income tax return examinations conducted by revenue agents and tax
compliance officers.
In FY 2007, the number of corporate tax returns examined increased by just over 4 percent, after
decreasing 1 percent in FY 2006. However, the number of corporate returns examined has
decreased almost 45 percent since FY 1998. The total number examined decreased from
1 of 48 returns filed in FY 1998 to 1 of 75 returns filed in FY 2007. The number of tax returns
examined for small corporations (those with assets of less than $10 million) increased by slightly
more than 12 percent, while the number of returns examined for large corporations (those with
assets of $10 million and greater) decreased by almost 9 percent. The dollar yield per hour
decreased by 36 percent in FY 2007.
Continued effort to improve compliance is important to reducing the tax gap and maintaining the
integrity of the voluntary tax compliance system. According to a tax gap strategy document
dated September 2006, the tax gap for Tax Year 2001 was $345 billion.5 The strategy document
provides a broad base on which to build future efforts to address the tax gap but depends on
future budgets to provide detailed strategy elements. In August 2007, the IRS released a report
that builds on the strategy by providing details about actions planned to reduce the tax gap.6
However, many of the actions will require the assistance of Congress.

Recommendation
We made no recommendations in this report. However, key IRS management officials reviewed
the report prior to issuance and agreed with the facts and conclusions.




3
  This includes examinations conducted by employees located in field offices and campuses.
4
  We computed this percentage using the audit technique to identify whether there was actual face-to-face contact
during the examination. This number differs from publicized reports that rely solely on the organizational code.
5
  A Comprehensive Strategy for Reducing the Tax Gap (Department of the Treasury, Office of Tax Policy, dated
September 26, 2006).
6
  Reducing the Federal Tax Gap – A Report on Improving Voluntary Compliance (IRS, dated August 2, 2007).
                                                                                                                    3
                   Trends in Compliance Activities Through Fiscal Year 2007




Copies of this report are also being sent to the IRS managers affected by the report information.
Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Acting
Assistant Inspector General for Audit (Small Business and Corporate Programs), at
(202) 622-8510.




                                                                                                    4
                          Trends in Compliance Activities Through Fiscal Year 2007




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          Overall, Compliance Activities Increased and Results Improved ................Page 2
          Collection Function Compliance Activities Increased and
          Results Improved ..........................................................................................Page 3
          Examination Function Compliance Activities Increased and
          Results Improved ..........................................................................................Page 6

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Glossary of Terms................................................................Page 15
          Appendix V – Detailed Charts of Statistical Information.............................Page 19
          Appendix VI – Prior Treasury Inspector General for Tax
          Administration Compliance Trends Reports ................................................Page 46
        Trends in Compliance Activities Through Fiscal Year 2007




                     Abbreviations

ACS            Automated Collection System
CFf            Collection Field function
FY             Fiscal Year
IRS            Internal Revenue Service
SCCB           Service Center Collection Branch
TDA            Taxpayer Delinquent Account
TDI            Taxpayer Delinquency Investigation
TIGTA          Treasury Inspector General for Tax Administration
                   Trends in Compliance Activities Through Fiscal Year 2007




                                     Background

We initiated this review of nationwide compliance statistics for examination and collection
activities due to an ongoing request of the Internal Revenue Service (IRS) Oversight Board. Our
data analyses were performed in the Treasury Inspector General for Tax Administration
(TIGTA) Chicago, Illinois, office during the period January through March 2008. We used
nationwide data from IRS management information system reports during our review. Due to
time and resource constraints, we did not audit IRS systems to validate the accuracy and
reliability of their information. Also, we did not assess internal controls because doing so was
not applicable within the context of our objective. Our analyses were limited to identifying
changes and trends in data prepared and reported by the IRS.
Detailed information on our objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II. A Glossary of Terms is included in
Appendix IV. Detailed charts and tables referred to in the body of this report are included in
Appendix V. We eliminated some charts for examinations of individual taxpayers this year
because the IRS Examination function changed the way in which it categorizes individual tax
returns. We added charts showing statistics for efforts to secure delinquent tax returns from
taxpayers.
Most of the calculations throughout the report and Appendix V are affected by rounding. All
initial calculations were performed using the actual numbers rather than the rounded numbers
that appear in the report. Much of the data included in this report update prior TIGTA reports on
compliance trends. Appendix VI presents a list of those reports.




                                                                                          Page 1
                       Trends in Compliance Activities Through Fiscal Year 2007




                                      Results of Review

Overall, many compliance activities increased and results improved during Fiscal
Year (FY) 2007. Since FY 2000, the IRS has reversed numerous downward trends
in compliance activities that occurred in prior years. In FY 2007, many of these activities
continued to increase, while others fell slightly from the prior year.
Although the IRS has reversed many of the downward trends in compliance activities, the
enforcement staff levels in the Collection and Examination functions are not significantly higher
than the 10-year lows experienced in FY 2003. The combined number of Collection function
and Examination function enforcement personnel1 declined by 23 percent, from approximately
19,500 at the beginning of FY 1998 to 15,000 at the end of FY 2007. After increasing by
8 percent during FY 2006, staffing decreased by 4 percent this year. The Small Business/
Self-Employed Division FY 2008 Hiring Plan includes authorized hiring of nearly 1,000 revenue
agents, tax compliance officers, and revenue officers. The Collection and Examination
Enforcement budget was flat for FYs 2006 through 2008. However, the President’s Budget
Proposal for FY 2009 includes an 8 percent increase for that budget account.

Overall, Compliance Activities Increased and Results Improved
For some time, the total number of tax returns filed and the total dollars the IRS received
(gross collections) have increased. In the past 10 years, the total number of tax returns filed
grew by almost 12 percent, from about 161 million in Calendar Year 1997 to more than
179 million in Calendar Year 2006. IRS gross collections grew from $1.77 trillion in FY 1998 to
$2.13 trillion in FY 2001, then fell a total of slightly more than 8 percent during FYs 2002 and
2003 to $1.95 trillion. These were the first decreases in total revenue since FY 1983. However,
since FY 2003, gross collections have increased by almost 38 percent and reached a new record
high of $2.69 trillion in FY 2007.2
After remaining relatively constant for FYs 1999 through 2002, the amount of enforcement
revenue collected increased by almost 74 percent in the last 5 years. During FY 2007,
enforcement revenue collected increased by 22 percent to $59.2 billion.3 This amount (not
adjusted for inflation) is 68 percent higher than the FY 1998 amount.4


1
  Collection function and Examination function staff located in field offices, excluding management and overhead
staff.
2
  See Appendix V, Figure 1.
3
  See Appendix V, Figure 3.
4
  See Appendix V, Figure 2.
                                                                                                          Page 2
                      Trends in Compliance Activities Through Fiscal Year 2007




As our report points out, the IRS has reversed many of the enforcement declines in both the
Collection and Examination functions. However, despite work the IRS is doing to improve its
enforcement efforts, the Government Accountability Office continued to include enforcement of
tax laws (collection of unpaid taxes and Earned Income Tax Credit noncompliance) as 1 of the
26 high-risk areas in the Federal Government in its most recent (January 2007) update.5 The
Government Accountability Office states that improvements in compliance with tax laws will
require efforts by the IRS and Congress.
Continued effort to improve compliance is important to reducing the tax gap and maintaining the
integrity of the voluntary tax compliance system. According to a tax gap strategy document
dated September 2006, the tax gap for Tax Year 2001 was $345 billion, representing a
compliance rate of about 84 percent.6 The purpose of the strategy document was to provide a
broad base on which to build future efforts to address the tax gap. In August 2007, the IRS
released a report that builds on the strategy by providing details about actions planned to reduce
the tax gap.7
The IRS’ current strategy for reducing the tax gap is largely dependent on receipt of funding for
additional compliance resources and legislative changes. Therefore, long-term success will in
large part be dependent on reducing risk factors, some of which are beyond the control of the
IRS. One proposal–to add information reporting requirements–is a proven method for increasing
compliance. However, outside stakeholder groups have expressed concern about the increased
burden of additional information reporting requirements. However, 61 percent of taxpayers
surveyed cited information reporting as a factor for reporting and paying taxes honestly.8

Collection Function Compliance Activities Increased and Results
Improved
The number of Collection Field function (CFf) revenue officer personnel working assigned
delinquent cases decreased 4 percent (to 3,724) by the end of FY 2007.9 However, since the start
of FY 1998, revenue officer staffing has decreased by almost 32 percent.
Although revenue officer staffing is down, many compliance activities continued to increase and
results improved during FY 2007. Some of the improvements in Collection function activities
that have occurred over the last few years could be the result of an FY 2005 organizational
change in the Small Business/Self-Employed Division and efforts to improve business processes.
However, the results of some activities were not positive.

5
  HIGH-RISK SERIES – An Update (GAO-07-310, dated January 2007).
6
  A Comprehensive Strategy for Reducing the Tax Gap (Department of the Treasury, Office of Tax Policy, dated
September 26, 2006).
7
  Reducing the Federal Tax Gap – A Report on Improving Voluntary Compliance (IRS, dated August 2, 2007).
8
  IRS Oversight Board 2007 Taxpayer Attitude Survey (dated February 2008).
9
  See Appendix V, Figure 5.
                                                                                                        Page 3
                      Trends in Compliance Activities Through Fiscal Year 2007




Many Collection function operations showed improvement
The following activities showed positive results for the Collection function during FY 2007:
     •   Dollars collected on Taxpayer Delinquent Accounts (TDA) by Automated Collection
         System (ACS) and CFf employees totaled just over $6.3 billion, an increase of almost
         3 percent from FY 2006.10 This year’s amount is almost 76 percent greater than the
         10-year low that occurred in FY 2000.
     •   The average amount collected per CFf staff year on TDAs increased by just over
         2 percent from FY 2006. The amount increased by just over 109 percent (to $567,733)
         from a low of $271,110 in FY 1999.11 However, the average amount collected is about
         2 percent less than that in FY 2005, the 10-year high.
     •   The number of TDAs closed (excluding shelved accounts) and the number closed by full
         payment increased by almost 7 percent and by almost 6 percent, respectively, from
         FY 2006.12 This year’s volumes are the 10-year highs.
     •   The number of taxpayers with Taxpayer Delinquency Investigations (TDI) closed by the
         ACS and the CFf because delinquent tax returns were received by the IRS increased by
         almost 2 percent from FY 2006. This was due to the large increase in closures by the
         CFf; ACS closures decreased by almost 6 percent during the year. Overall, there has
         been a 74 percent increase since the 10-year low that occurred in FY 2002.
     •   As shown in Figure 1, the use
         of liens (a collection                    Figure 1: Use of Collection Enforcement Tools
         enforcement tool) has                                      Liens          Levies         Seizures
         increased by 307 percent since           FY 1998            382,755       2,503,409          2,259
                                                  FY 1999            167,867         504,403            161
         the low experienced in                   FY 2000            287,517         219,778             74
         FY 1999. During FY 2007,                 FY 2001            426,165         674,080            234
         the number of liens issued by            FY 2002            482,509       1,283,742            296
                                                  FY 2003            544,316       1,680,844            399
         the CFf increased by almost              FY 2004            534,392       2,029,613            440
         17 percent, while liens issued           FY 2005            522,887       2,743,577            512
                                                  FY 2006            629,813       3,742,276            590
         by the ACS decreased by                  FY 2007            683,659       3,757,190            676
         almost 2 percent.13 The CFf           Source: Small Business/Self-Employed Division Collection Planning
                                               and Analysis, Collection National Reports, and IRS Data Book.
         and total volumes represented
         10-year highs. As mentioned



10
   See Appendix V, Figure 9.
11
   See Appendix V, Figure 8.
12
   See Appendix V, Figures 17 and 18.
13
   See Appendix V, Figure 19.
                                                                                                             Page 4
                     Trends in Compliance Activities Through Fiscal Year 2007




         in last year’s report, part of the increase in the number of liens filed on accounts with
         large balance-due amounts might be attributable to procedural changes made by the
         Collection function.14
         As also shown in Figure 1, the uses of levies and seizures (additional collection
         enforcement tools) increased substantially from lows experienced in FY 2000. Levies
         increased by 1,610 percent, and seizures increased by 814 percent.15 While use of levies
         has surpassed the FY 1998 level, the current seizure level represents only a small fraction
         of the FY 1998 level. The use of seizures is unlikely to return to a pre-1998 level in the
         foreseeable future.
Some Collection function operations showed mixed results
Some indicators were not positive for Collection function compliance activity during FY 2007.
     •   The amount of gross accounts receivable increased by almost 7 percent (to $290 billion)
         after increasing almost 5 percent during FY 2006.16 The FY 2007 amount represents the
         10-year high. The increase in gross accounts receivable occurred even though there were
         increases in gross collections and enforcement revenue collected.
     •   More TDAs were received than closed, and the gap between TDA receipts and TDA
         closures had widened by almost 63 percent (to 1,914,508 accounts) as of the end of the
         fiscal year.17 This is the largest year-end gap in the 10-year period.
An inventory of unassigned collection cases is maintained in the Queue. The number of
taxpayers with TDAs in the Queue and the amount owed on these accounts increased to 10-year
highs during FY 2007.18 The number of taxpayer accounts increased by just over 11 percent to
866,777. At the same time, the amount owed increased by just over 28 percent to $34.9 billion.
One reason for the increase in the Queue is a rise in the number of compliance assessments.19 In
addition, the number of taxpayers with TDIs increased by just over 21 percent to 998,287, even
though there was a just over 173 percent increase in the number of these accounts that were
shelved or surveyed (removed from inventory) during the year.20 Although many of the cases in
the Queue might be assigned to be worked, a significant number might never be worked.
As noted above, the Queue inventory increased during FY 2007. However, those inventory
figures do not include the millions of TDA and TDI tax periods shelved or surveyed (removed)


14
   High-Risk Work Is Selected From the Unassigned Delinquent Account Inventory, but Some Unassigned Accounts
Need Management’s Attention (Reference Number 2006-30-030, dated February 2006).
15
   See Appendix V, Figures 20 and 21.
16
   See Appendix V, Figure 3.
17
   See Appendix V, Figure 15.
18
   See Appendix V, Figure 16.
19
   See Appendix V, Figures 22, 24, and 45.
20
   See Appendix V, Figures 10 and 11.
                                                                                                     Page 5
                       Trends in Compliance Activities Through Fiscal Year 2007




from Collection function inventory during the last few years. In FYs 2001 through 2007, the IRS
removed almost 7.6 million TDAs21 (with balance-due amounts totaling almost $31.2 billion) and
18.1 million TDI tax periods from Collection function inventory. These cases were removed
because they were potentially less productive than other available inventory and might never be
worked.
The Collection function is unable to work all of the existing accounts in the Queue with current
staffing, and the number of TDA receipts is outpacing closures. If changes do not occur, a
significant number of cases will continue to not be worked. This reinforces the need for
additional resources to work the cases. As previously noted, the number of revenue officers
decreased during FY 2007, but there are plans to hire for this position during FY 2008. In
addition, in September 2006, the IRS started assigning balance-due cases that otherwise would
not have been worked to private collection agencies. Through FY 2007, the IRS had received a
total of $26.6 million after expected commissions on cases assigned to the collection agencies,
and program costs totaled $69.8 million. More than 96 percent of the total revenue collected by
the agencies was received in FY 2007 alone. The program netted $11.3 million after subtraction
of expected commissions and program costs for the year. However, continued use of private
collection agencies is uncertain because some members of Congress want the IRS to discontinue
their use.

Examination Function Compliance Activities Increased and Results
Improved
Overall, the number of field Examination function personnel that conduct examinations of tax
returns decreased by just over 4 percent between FYs 2006 and 2007. The number of revenue
agents decreased to 10,121, while the number of tax compliance officers decreased to 1,060 as of
the end of the fiscal year.22 The number of examiners in field offices23 has decreased by almost
20 percent since the start of FY 1998.
Despite the decrease in the number of examiners during FY 2007, Examination function
compliance activities increased in some areas, as noted below. Some of this increase could have
been the result of changes implemented by the Small Business/Self-Employed Division, which
over the last few years has implemented reengineering and organizational changes that could
have had a positive impact on compliance activities within the Examination function. In
addition, the Examination function continues to study methods that will result in identifying for
examination those tax returns that contain greater potential for noncompliance.



21
   See Appendix V, Figure 11.
22
   See Appendix V, Figure 4.
23
   Examiners in field offices include revenue agents, tax compliance officers, tax examiners, and revenue officer
examiners.
                                                                                                             Page 6
                       Trends in Compliance Activities Through Fiscal Year 2007




Compared to FY 2006, the percentage of tax returns examined increased for most types of
returns during FY 2007. At the same time, the dollar yield per hour on examinations increased
for individual tax returns, but revenue agent results decreased for corporate and other types of tax
returns.24

The number of tax returns examined increased, but many examinations were
conducted via correspondence
When analyzing examination coverage rates, one must recognize differences in the types of
contacts that are counted in Examination function statistics. Examinations range from issuance
of an IRS notice asking for clarification of a single tax return item that appears to be incorrect
(correspondence examination) to a full, face-to-face interview and review of the taxpayer’s
records. Face-to-face examinations are generally more comprehensive and time consuming for
the IRS and the taxpayers, and they typically result in higher dollar adjustments to the tax
amounts. Thus, caution should be used when combining statistics from the various Examination
function programs into overall examination rates. During FY 2007, slightly more than
71 percent of all examinations were conducted via correspondence.
In addition, the IRS uses several computer-matching and automated error-checking routines in
the Computing Centers to check the accuracy of tax returns. These routines often identify
adjustments to tax liabilities. However, these adjustments are not included in the traditional
“audit rates” and are not generally reported separately as enforcement efforts.
The overall percentage of tax returns examined (including face-to-face and correspondence
examinations) increased by almost 9 percent25 from FY 2006 and has doubled since FY 2000. In
addition, the overall percentage of tax returns examined was almost 2 percent higher than in
FY 1998. The largest increase in the examination rate from FY 2000 was due to examinations of
individual, employment, and excise tax returns. Examinations of other types of tax returns did
not increase as significantly or decreased.




24
  See Appendix V, Figures 23 through 26.
25
  The IRS has traditionally calculated the percentage of examination coverage by dividing the number of returns
examined in the current fiscal year by the number of returns filed in the preceding calendar year.
                                                                                                          Page 7
                                 Trends in Compliance Activities Through Fiscal Year 2007




                                                                                            Figure 2 compares the change in field
     Figure 2: Percentage Change in the Number of Field Examiners                           Examination function staffing to the
                           and Examinations
                                                                                            change in the number of examinations
                   Total Field Examiners                 Total Field Examinations           by field employees, for all types of
     10%
                                                                                            tax returns, from the beginning of
      0%
                                                                                            FY 1998 through FY 2007. The chart
     -10%
                                                                                            line for the number of field examiners
     -20%
                                                                                            does not start at zero because the
     -30%
                                                                                            number of examiners conducting
     -40%
                                                                                            examinations during FY 1998
     -50%
                                                                                            decreased by almost 3 percent during
     -60%
                                                                                            the year. While Examination function
     -70%
        FY 1998   FY 1999 FY 2000 FY 2001 FY 2002 FY 2003 FY 2004 FY 2005 FY 2006 FY 2007   staffing decreased during FY 2007,
     Source: IRS Data Book and Examination Table 37.                                        the IRS plans to hire additional
                                                                                            examiners in FY 2008.
A continued effort to increase examination coverage is important to maintaining the
effectiveness of the voluntary tax compliance system. The study of taxpayer attitudes about the
acceptability of cheating on taxes showed a decline in each of the last 2 years, after showing
improvements each year since 2003. In 2007, 13 percent of taxpayers believed it was acceptable
to cheat on their tax returns. This is up from 10 percent in 2005. Fear of examination as a major
factor influencing taxpayers to report taxes honestly also decreased in the last 2 years. In 2007,
54 percent of taxpayers surveyed cited fear of examination as a factor that influenced their
voluntary compliance. This is down from 62 percent in 2005.
The following paragraphs summarize examination coverage for various types of tax returns:
     •      Individual Income Tax Examinations – Overall, the number of individual income tax
            returns examined decreased from FY 1998 through FY 2000. During FY 2000, only
            617,765 (1 of every 202) individual income tax returns were examined. Since then, the
            number examined has continuously increased: 1,384,563 (1 of every 97) returns were
            examined in FY 2007.26 Almost 83 percent of the examinations of individuals were done
            by correspondence during FY 2007.27 Only 1 of every 561 individual income tax returns
            filed received a face-to-face examination, while 1 of every 118 received a
            correspondence examination.
     •      Corporate Income Tax Examinations – The number of corporate income tax returns
            examined (excluding returns for foreign corporations and S Corporations) increased by

26
   This includes examinations conducted by employees located in field offices and campuses. See Appendix V,
Figure 29.
27
   We computed this percentage using the audit technique to identify whether there was actual face-to-face contact
during the examination. This number differs from publicized reports that rely solely on the organizational code.
                                                                                                                           Page 8
                       Trends in Compliance Activities Through Fiscal Year 2007




         just over 4 percent in FY 2007, after decreasing by 1 percent in FY 2006. However, the
         number of examinations has decreased by almost 45 percent since FY 1998. In FYs 1998
         to 2007, the total number of corporate tax returns examined decreased from 53,648 (1 of
         every 48 returns filed) to 29,664 (1 of every 75 returns filed).28 The number of corporate
         income tax returns filed decreased by 13 percent during the 10-year period. The decrease
         in the number of returns filed reduced the impact on the examination coverage rate.
         The number of corporate tax returns examined with assets of less than $10 million
         increased by slightly over 12 percent in FY 2007. During the same period, the number of
         corporate tax returns examined with assets of $10 million and greater decreased by
         almost 9 percent, and examinations of those with assets of $250 million and greater
         decreased by almost 20 percent. However, a much higher percentage of the large
         corporations than those with assets of less than $10 million is examined.
     •   S Corporation Return Examinations – After declining by 75 percent from FYs 1998 to
         2004, the number of S Corporation tax returns examined increased by almost 176 percent
         from FYs 2004 to 2007. The increase in FY 2007 alone was slightly over 26 percent.
         Since FY 2004, the number of S Corporation returns filed has increased by 16 percent.
         During that period, the number of tax returns examined increased from 1 of every
         526 returns filed to 1 of every 221 returns filed.29 The increase in examination coverage
         can be partly attributed to the IRS research project studying the compliance of
         S Corporation entities. However, almost all of these examinations are completed, which
         could result in a decrease in the number of examinations in future years. The results of
         this project could lead to future changes in the examination selection methodology for
         this type of tax return.
     •   Partnership Return Examinations – The number of partnership returns examined
         increased by 25 percent in FY 2007 and has increased by almost 141 percent since the
         10-year low experienced in FY 2001. The number of returns filed increased by about
         42 percent between FYs 2001 and 2007.30 About 1 of every 408 returns filed was
         examined in FY 2001. This increased to 1 of every 241 for this year.
     •   Other Tax Types Examinations (Fiduciary, Employment, Excise, Estate, and Gift
         Taxes) – The overall number of examinations in these 5 classes increased by just over
         49 percent during FY 2007 and was up just over 156 percent from the 10-year low
         experienced in FY 2003. A major portion of this year’s increase was due to rises in the
         number of examinations of employment and excise tax returns. The number of fiduciary



28
   See Appendix V, Figures 34, 35, and 46 for coverage by size of corporation.
29
   See Appendix V, Figures 37 and 46.
30
   See Appendix V, Figures 38 and 46.
                                                                                            Page 9
                      Trends in Compliance Activities Through Fiscal Year 2007




        returns examined increased slightly, but the number of estate and gift tax returns
        examined decreased.31
Examination function dollar yield per hour has mixed results
Figure 3 shows the dollar yield per hour
for FYs 1998 through 2007 for revenue                        Figure 3: Examination Function Dollar Yield per Hour

agents and tax compliance officers.                              R A - Individual                TC O - Individual               R A - Corporate
The dollar yield per hour improved for              $3,200



examinations of individual tax returns              $2,800



during FY 2007–by almost 3 percent                  $2,400



for tax compliance officers and by just             $2,000



over 15 percent for revenue agents.                 $1,600


However, the yield decreased by almost              $1,200


36 percent for revenue agent                         $800


examinations of corporate tax returns                $400
                                                       FY 1998     FY 1999   FY 2000   FY 2001    FY 2002   FY 2003   FY 2004   FY 2005   FY 2006   FY 2007
during FY 2007.
                                                   Source: TIGTA analysis of Examination Table 37. RA = revenue agent.
                                                   TCO = tax compliance officer.
The Examination function dollar yield
per hour for individual income tax
return examinations was lower in FY 2004 than in FY 1998.32 Since FY 2004, the yield has
increased each year for tax compliance officers. The dollar yield per hour increased significantly
for revenue agents during FY 2005, decreased slightly during FY 2006, then increased slightly
during FY 2007. The dollar yield per hour for revenue agents is above the FY 1998 level, but
the yield for tax compliance officers is not. The dollar results per individual income tax return
examined fluctuated during the 10-year period, especially for revenue agents. The number of
hours used to examine each tax return increased substantially through FY 2004, then decreased
through FY 2007 except for a small increase during FY 2007 for tax compliance officers.
The dollar yield per hour spent examining corporate tax returns increased by 239 percent from
FYs 2003 to 2006 and then decreased almost $1,000 per hour (36 percent) in FY 2007.33 During
the same time period, the average hours spent examining each tax return and the average dollar
amounts assessed per return fluctuated significantly. The net effect was an increase in the dollar
yield per hour for FYs 2003 through 2006 and a decrease in FY 2007.
Conclusion
Since FY 2000, the IRS has reversed numerous downward trends in compliance activities that
occurred in both the Collection and Examination functions. The IRS should continue its efforts
to improve the business processes and workload selection methods because they appear to be

31
   See Appendix V, Figures 39 through 43 and 46.
32
   See Appendix V, Figures 23 and 26.
33
   See Appendix V, Figure 24.
                                                                                                                                              Page 10
                  Trends in Compliance Activities Through Fiscal Year 2007




having a positive impact on compliance efforts. In addition, the hiring and training of new
enforcement personnel should continue to be a top priority because many experienced employees
in those positions are already eligible for retirement or will become eligible in the next few
years.




                                                                                      Page 11
                          Trends in Compliance Activities Through Fiscal Year 2007




                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to provide statistical information and trend analyses of
examination and collection activities, as requested by the IRS Oversight Board.1
To accomplish our objective, we analyzed information obtained from IRS management
information system reports to determine trends and changes in the major areas of compliance.
Due to time and resource constraints, we did not audit IRS systems to validate the accuracy and
reliability of their information. Also, we did not assess internal controls because doing so was
not applicable within the context of our objective. The major issues we focused on included:
       •   Enforcement revenue and gross accounts receivable.
       •   Collection and Examination function staffing.
       •   Collection and Examination function direct time.
       •   Collection function delinquent account inventories and unfiled return investigations.
       •   Collection function enforcement actions (liens, levies, and seizures).
       •   Examination function coverage of individual and business tax returns compared to the
           number of returns filed in each category.
       •   Examination function productivity results for individual and business tax returns.
       •   Other activities resulting in improvements in the accuracy of filed tax returns and the
           filing of delinquent returns.




1
    See Appendix IV for a glossary of terms used in this report.
                                                                                             Page 12
                  Trends in Compliance Activities Through Fiscal Year 2007




                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Carl L. Aley, Director
Amy L. Coleman, Audit Manager
Joseph P. Snyder, Lead Auditor
Janice A. Murphy, Senior Auditor




                                                                                      Page 13
                 Trends in Compliance Activities Through Fiscal Year 2007




                                                                  Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Office of Research, Analysis, and Statistics RAS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                        Page 14
                    Trends in Compliance Activities Through Fiscal Year 2007




                                                                                   Appendix IV

                                 Glossary of Terms

6020(b) Program – A provision of the Internal Revenue Code that allows the IRS to prepare
returns for businesses when they appear to be liable for a return, have not filed the return, and
attempts to secure the return have failed.
Automated Collection System – A telephone contact system through which telephone assistors
collect unpaid taxes and secure tax returns from delinquent taxpayers who have not complied
with previous notices.
Automated Substitute for Return system – A system designed to assess taxes on wage earners
who fail to file tax returns. It analyzes information submitted to the IRS and historical tax return
information.
Balance Sheet – A statement of the financial assets and liabilities of a business at a given date
filed with a corporate income tax return. It is used by the IRS to group businesses by the size of
their assets.
Campus – The data processing arm of the IRS. The campuses process paper and electronic
submissions, correct errors, and forward data to the Computing Centers for analysis and posting
to taxpayer accounts.
Collection Field function – The unit in the field offices consisting of revenue officers who
handle personal contacts with taxpayers to collect delinquent accounts or secure unfiled tax
returns.
Compliance Assessments – Those assessments generated by the Examination function, the
Underreporter Program, the Automated Substitute for Return Program, and the 6020(b) Program.
Computing Centers – IRS facilities that support tax processing and information management
through a data processing and telecommunications infrastructure.
Corporate Income Tax Return – U.S. Corporation Income Tax Return (Form 1120). It is used
by corporations to report the corporate income tax.
Dollar Yield Per Hour – The amount of tax adjustments on tax returns divided by the number
of hours spent examining those returns.
Earned Income Tax Credit – A tax credit for certain people who work and have income under
established limits.




                                                                                            Page 15
                    Trends in Compliance Activities Through Fiscal Year 2007




Employment Tax Returns – Various Form 940 return series (primarily Employer’s Annual
Federal Unemployment (FUTA) Tax Return (Form 940) and Employer’s QUARTERLY Federal
Tax Return (Form 941)) filed by businesses to report things such as employer’s Federal
unemployment taxes and Federal taxes withheld.
Enforcement Revenue – Any tax, penalty, or interest received from a taxpayer as a result of an
IRS enforcement action (usually an examination or a collection action).
Estate Tax Return – United States Estate (and Generation-Skipping Transfer) Tax Return
(Form 706). It is filed for estates of certain deceased persons.
Examination (Face-to-Face) – A field examination of an individual, a partnership, or a
corporation that occurs either at the taxpayer’s place of business or through an interview(s) at an
IRS office.
Excise Tax Return – Quarterly Federal Excise Tax Return (Form 720). It is used to report and
pay certain taxes, such as those on transportation and fuel.
Fiduciary Income Tax Returns – Income tax returns filed for estates and trusts.
Gift Tax Return – United States Gift (and Generation-Skipping Transfer) Tax Return
(Form 709). It is used to report transfers subject to the Federal gift taxes and to calculate the
taxes due on those transfers.
Gross Accounts Receivable – Includes all unpaid tax, with accrued penalties and interest, on
taxpayers’ delinquent accounts.
Individual Income Tax Returns – U.S. Individual Income Tax Returns (Form 1040 series).
They are annual income tax returns filed by citizens or residents of the United States.
IRS Data Book – An IRS annual report providing information on returns filed and taxes
collected, enforcement, taxpayer assistance, the IRS budget and workforce, and other selected
activities for the fiscal year.
IRS Oversight Board – An independent body charged with overseeing the IRS in its
administration, management, conduct, direction, and supervision of the execution and application
of the internal revenue laws.
Levy – A method used by the IRS to collect outstanding taxes from sources such as bank
accounts and wages.
Lien – An encumbrance on property or rights to property as security for outstanding taxes.
Math Error Program – A process in which the IRS contacts taxpayers through the mail or by
telephone when it identifies mathematical errors or mismatches of taxpayer information that
would result in tax changes.
National Research Project – Research conducted by the IRS to determine filing, payment, and
reporting compliance by taxpayers for different types of taxes.

                                                                                             Page 16
                    Trends in Compliance Activities Through Fiscal Year 2007




Overhead Staff – Support staff performing indirect duties within the function such as
automation support, technical support, and quality review.
Partnership Return – U.S. Return of Partnership Income (Form 1065). It is used to report the
income and expenses of domestic partnerships and the share distributed to each partner.
Queue – An automated holding file for unassigned inventory of delinquent cases for which the
Collection function does not have enough resources to immediately assign for contact.
Revenue Agent – An employee in the Examination function who conducts face-to-face
examinations of more complex tax returns such as businesses, partnerships, corporations, and
specialty taxes (e.g., excise tax returns).
Revenue Officer – An employee in the CFf who attempts to contact taxpayers and resolve
collection matters that have not been resolved through notices sent by the IRS campuses
(formerly known as service centers) or the ACS.
Revenue Officer Examiner – A revenue officer who has been trained to conduct examinations
of employment tax returns.
S Corporation Tax Return – U.S. Income Tax Return for an S Corporation (Form 1120S). It is
filed by qualifying small business corporations and includes amounts distributed to shareholders.
Seizure – The taking of a taxpayer’s property to satisfy his or her outstanding tax liability.
Service Center Collection Branch – An IRS function that mails the balance-due and
return-delinquency notices to taxpayers and analyzes and responds to taxpayer correspondence.
Shelved or Surveyed Cases – Delinquent unpaid accounts or investigations of unfiled tax
returns that have been taken out of the Collection function inventory because they are of lower
priority than other available inventory.
Tax Compliance Officer/Tax Auditor – An employee in the Examination function that
primarily conducts examinations of individual taxpayers through interviews at IRS field offices.
The position title was changed in 2002 from tax auditor to tax compliance officer.
Tax Examiner – In the context of this report, an employee located in a field office who conducts
examinations through correspondence. However, the tax examiner position is also used for
many other types of positions located in various IRS offices.
Taxpayer Delinquent Account – A balance-due account of a taxpayer. A separate TDA exists
for each delinquent tax period.
Taxpayer Delinquency Investigation – An unfiled tax return(s) for a taxpayer. One TDI exists
for all delinquent tax periods for a taxpayer.
Tax Gap – The difference between what taxpayers should have paid and what they actually paid
on time.


                                                                                             Page 17
                   Trends in Compliance Activities Through Fiscal Year 2007




Tax Period – Refers to each tax return filed by the taxpayer for a specific period (year or
quarter) during a calendar year for each type of tax.
Underreporter Program – A process where items reported on an individual’s income tax return
are matched to information supplied to the IRS from outside sources (such as employers, banks,
and credit unions) to determine if the taxpayer’s tax return reflected the correct amounts and if
the tax amount is correct.




                                                                                              Page 18
                      Trends in Compliance Activities Through Fiscal Year 2007




                                                                                                     Appendix V

           Detailed Charts of Statistical Information

Note: We eliminated some charts for examinations of individual taxpayers this year because
the IRS Examination function changed the way in which it categorizes individual tax returns.
We added charts showing statistics for efforts to secure delinquent tax returns from taxpayers.
Figure 1 – Gross Collections by Type of Tax Since FY 1998...............................Page 22
Figure 2 – Changes in Enforcement Revenue and Gross Accounts
           Receivable – Percentage Change From FY 1998 .................................Page 22
Figure 3 – Amounts of Enforcement Revenue Collected Compared to
           Growth in Gross Accounts Receivable.................................................Page 23
Figure 4 – Examination Function Staffing at the End of Each Fiscal Year...........Page 23
Figure 5 – CFf Staffing at the End of Each Fiscal Year ........................................Page 24
Figure 6 – Staff Years Detailed to Assist Walk-In Taxpayers...............................Page 24
Figure 7 – Changes in Direct Time Percentages....................................................Page 25
Figure 8 – Average Dollars Collected per Staff Year on TDAs by the CFf..........Page 25
Figure 9 – Total Dollars Collected on TDAs by the CFf and ACS .......................Page 26
Figure 10 – TDAs and TDIs in the Queue.............................................................Page 26
Figure 11 – TDA and TDI Tax Periods Shelved or Surveyed Each Year .............Page 27
Figure 12 – Gap Between TDI Tax Period Receipts and Closures........................Page 27
Figure 13 – Number of TDI Tax Periods Closed, Excluding Shelved Accounts ..Page 28
Figure 14 – Number of TDI Tax Periods Closed With Receipt of a
            Delinquent Tax Return .......................................................................Page 28
Figure 15 – Gap Between TDA Receipts and Closures.........................................Page 29
Figure 16 – Number of Taxpayers and Amount Owed in the Queue ....................Page 29
Figure 17 – Number of TDAs Closed, Excluding Shelved Accounts ...................Page 30
Figure 18 – Number of TDAs Closed by Full Payment ........................................Page 30
                                                                                                               Page 19
                       Trends in Compliance Activities Through Fiscal Year 2007




Figure 19 – Liens Filed by the CFf and ACS ........................................................Page 31
Figure 20 – Levies Issued by the CFf and ACS.....................................................Page 31
Figure 21 – Number of Seizures Made Each Fiscal Year......................................Page 32
Figure 22 – Examination Coverage of All Tax Returns – Percentage Change
            From FY 1998 ....................................................................................Page 32
Figure 23 – Revenue Agent Results on U.S. Individual Income Tax
            Returns (Form 1040), Excluding Training Returns – Percentage
            Change From FY 1998 .......................................................................Page 33
Figure 24 – Revenue Agent Results on Corporate Income Tax Returns,
            Excluding Training Returns – Percentage Change From FY 1998....Page 33
Figure 25 – Revenue Agent Results on Other Types of Tax Returns,
            Excluding Training Returns – Percentage Change From FY 1998....Page 34
Figure 26 – Tax Compliance Officer Results on Forms 1040, Excluding
            Training Returns – Percentage Change From FY 1998 .....................Page 34
Figure 27 – Number of Forms 1040 Examined Face-to-Face or Through
            Correspondence ..................................................................................Page 35
Figure 28 – Percentage of Forms 1040 Examined Face-to-Face or
            Through Correspondence ...................................................................Page 35
Figure 29 – Examination Coverage of Forms 1040...............................................Page 36
Figure 30 – Examination Coverage of Forms 1040 – Percentage Change
            From FY 1998 ....................................................................................Page 36
Figure 31 – Examination Coverage of Corporate Income Tax Returns –
            Percentage Change From FY 1998 ....................................................Page 37
Figure 32 – Percentage of Corporate Income Tax Returns Examined –
            Corporations With Assets of Less Than $10 Million.........................Page 37
Figure 33 – Percentage of Corporate Income Tax Returns Examined –
            Corporations With Assets of $10 Million and Greater.......................Page 38
Figure 34 – Examination Coverage of Corporations With Assets of
            Less Than $10 Million .......................................................................Page 38
Figure 35 – Examination Coverage of Corporations With Assets of
            $10 Million and Greater .....................................................................Page 39
                                                                                                                   Page 20
                       Trends in Compliance Activities Through Fiscal Year 2007




Figure 36 – Examination Coverage of Forms 1120S – Percentage Change
            From FY 1998 ....................................................................................Page 39
Figure 37 – Examination Coverage of Forms 1120S ............................................Page 40
Figure 38 – Examination Coverage of Partnership Income Tax Returns ..............Page 40
Figure 39 – Examination Coverage of Fiduciary Income Tax Returns .................Page 41
Figure 40 – Examination Coverage of Employment Tax Returns.........................Page 41
Figure 41 – Examination Coverage of Excise Tax Returns...................................Page 42
Figure 42 – Examination Coverage of Estate Tax Returns....................................Page 42
Figure 43 – Examination Coverage of Gift Tax Returns.......................................Page 43
Figure 44 – Other Compliance Contacts on Forms 1040 ......................................Page 43
Figure 45 – Other Compliance Contacts – Percentage of Form 1040 Coverage...Page 44
Figure 46 – Numbers and Percentages of Individual and Business
            Tax Returns Examined .......................................................................Page 45




                                                                                                                   Page 21
                                    Trends in Compliance Activities Through Fiscal Year 2007




Figure 1. Gross Collections by Type of Tax Since FY 1998. Overall, gross tax collections
rose in FY 2007 to the highest level of the 10-year analysis. Since the low experienced in
FY 2003, tax collections have increased by 104 percent (corporate income tax), 38 percent
(individual income tax), and 22 percent (employment tax).
              $3.0

                                                                                                                            Excise Tax

              $2.5


                                                                                                                            Estate & Gift
              $2.0                                                                                                          Tax
  Trillions




              $1.5
                                                                                                                            Employment
                                                                                                                            Tax

              $1.0

                                                                                                                            Corporate
                                                                                                                            Income Tax
              $0.5


                                                                                                                            Individual
              $0.0                                                                                                          Income Tax
                      FY           FY      FY       FY        FY           FY         FY       FY         FY        FY
                     1998         1999    2000     2001      2002         2003       2004     2005       2006      2007

  Source: TIGTA analysis of IRS Data Book.

Figure 2. Changes in Enforcement Revenue and Gross Accounts Receivable – Percentage
Change From FY 1998. Enforcement revenue has been increasing sharply since FY 2002. In
FY 2007, it was 68 percent higher than in FY 1998. After decreasing sharply during FY 2005,
gross accounts receivable was 18 percent higher in FY 2007 than in FY 1998.
                                   Enforcement Revenue                                      Gross Accounts Receivable
      70%
                                                                                                                                68%

      60%

      50%

      40%
                                                                                                        34%               38%
      30%
                                                                                            22%
      20%                                                                                                                        18%
                                                     12%            14%           13%             16%
                                           7%
      10%
                             5%                                                                                       10%
                                                                                     7%                 5%
              0%
                            -6%           -4%        -4%        -3%
   -10%
      FY 1998               FY 1999      FY 2000   FY 2001     FY 2002           FY 2003    FY 2004      FY 2005    FY 2006      FY 2007

  Source: Office of Research, Analysis, and Statistics and Chief Financial Officer information.

                                                                                                                                  Page 22
                                                       Trends in Compliance Activities Through Fiscal Year 2007




Figure 3. Amounts of Enforcement Revenue Collected Compared to Growth in Gross
Accounts Receivable. After dropping off significantly during FY 2005, gross accounts
receivable has increased by almost $31.5 billion since then. During the same time period,
enforcement revenue increased by $11.9 billion.
                                                       Enforcement Revenue                                            Gross Accounts Receivable
                                    $100                                                                                                                        $300




                                                                                                                                                                       Gross Accounts Receivable (Billions)
                                    $90                                                                                                                         $290
                                                                                                                                                     $290
   Enforcement Revenue (Billions)




                                                                                                                      $285
                                                                                          $280
                                    $80                                                                                                                         $280

                                                                                $276                 $278
                                    $70                                                                                                                         $270
                                                               $264                                                                          $271
                                                    $257                                                                                              $59.2
                                    $60                                                                                                                         $260
                                                                                                                              $258
                                    $50                                                                                                                         $250
                                                                                                                 $43.1
                                           $246                                                                                              $48.7
                                                                                                    $37.6                     $47.3
                                    $40                                                  $34.1                                                                  $240
                                                    $32.9       $33.8          $33.8
                                           $35.2
                                    $30                                                                                                                         $230

                                    $20                                                                                                                      $220
                                     FY 1998       FY 1999     FY 2000        FY 2001    FY 2002    FY 2003     FY 2004      FY 2005     FY 2006        FY 2007

 Source: Office of Research, Analysis, and Statistics and Chief Financial Officer information.

Figure 4. Examination Function Staffing at the End of Each Fiscal Year. The numbers in
Figure 4 represent the Examination function staff conducting examinations of tax returns
(excludes management and overhead staff). During FY 2007, revenue agent and tax compliance
officer staffing decreased slightly. The combined total is almost 20 percent lower than it was at
the beginning of FY 1998.
                                                           Revenue Agent                                                Tax Compliance Officer

   14,000


   12,000
                                           11,912    11,591
                                                                11,014
   10,000                                                                     10,381                                                           10,513
                                                                                         9,994                                                                10,121
                                                                                                   9,776                 9,787       9,682
                                                                                                              9,244
                  8,000


                  6,000


                  4,000

                                             2,011      1,850         1,650      1,393
                  2,000                                                                    1,190     1,148      1,041                                1,145      1,060
                                                                                                                             987        981

                                      0
                                           FY 1997 FY 1998 FY 1999 FY 2000 FY 2001 FY 2002 FY 2003 FY 2004 FY 2005 FY 2006 FY 2007

  Source: TIGTA analysis of Examination Table 37.

                                                                                                                                                                 Page 23
                           Trends in Compliance Activities Through Fiscal Year 2007




Figure 5. CFf Staffing at the End of Each Fiscal Year. The number of revenue officers
working assigned delinquent cases (excludes management and overhead staff) decreased slightly
during the year and was almost 32 percent lower than at the start of FY 1998.
   6,000


               5,439
   5,000
                          4,989

   4,000                             4,354

                                                              3,792                            3,779                   3,876
                                                3,601                                                      3,680                    3,724
                                                                      3,495           3,499
   3,000


   2,000


   1,000


         0
              FY 1997 FY 1998 FY 1999 FY 2000 FY 2001 FY 2002 FY 2003 FY 2004 FY 2005 FY 2006 FY 2007

  Source: Collection Report 5000-23.

Figure 6. Staff Years Detailed to Assist Walk-In Taxpayers. The number of staff years
detailed to assist walk-in taxpayers decreased again in FY 2007 and remained lower than the
number detailed during FY 1998.
                                 Collection                                                        Examination
   700
                                              646
   600


   500                         468


   400
                   338               323
                         288
   300


   200       154                                         167          174
                                                104
   100                                                                           60
                                                               43                             30
                                                                            15                             10          9
                                                                                          3            1           1            1    4
     0
             FY 1998     FY 1999     FY 2000        FY 2001    FY 2002      FY 2003      FY 2004     FY 2005     FY 2006       FY 2007

  Source: TIGTA analysis of Collection Report 5000-23 and Examination Table 37.


                                                                                                                                      Page 24
                        Trends in Compliance Activities Through Fiscal Year 2007




Figure 7. Changes in Direct Time Percentages. The Collection and Examination functions
both increased the percentage of overall time charged to their direct tax-related responsibilities
(collecting taxes, securing tax returns not timely filed, and examining tax returns) during
FY 2007. This can be partially attributed to a decrease in training time because there were fewer
new hires. The Collection and Examination functions changed the types of time they capture as
direct and indirect in recent years, including capturing some of the previous indirect time as
direct time. Figure 7 depicts our recalculation of direct time based on direct time categories from
prior years, to present consistent data for the 10 years included in the graph.
                            Collection                                                Examination

  65%


  60%


  55%


  50%


  45%


  40%


  35%


  30%
    FY 1998    FY 1999     FY 2000       FY 2001     FY 2002    FY 2003         FY 2004    FY 2005     FY 2006      FY 2007

  Source: TIGTA analysis of Collection Report 5000-23 and Examination Table 37.

Figure 8. Average Dollars Collected per Staff Year on TDAs by the CFf. The average
amount collected by the CFf for each staff year has increased by just over 109 percent since
FY 1999. It increased by just over 2 percent in FY 2007, after decreasing by almost 4 percent in
FY 2006.
   $600,000


   $550,000                                                                                $576,777
                                                                                                                 $567,733

                                                                                                      $554,909
   $500,000


   $450,000
                                                                                $451,100

   $400,000
                                                                     $416,450

   $350,000
                                                          $353,755
              $336,758                         $331,603
   $300,000

                                    $293,686
   $250,000              $271,110


   $200,000
              FY 1998    FY 1999    FY 2000    FY 2001    FY 2002    FY 2003     FY 2004   FY 2005    FY 2006     FY 2007

  Source: TIGTA analysis of Collection Reports 5000-2 and 5000-23.


                                                                                                                      Page 25
                                                        Trends in Compliance Activities Through Fiscal Year 2007




Figure 9. Total Dollars Collected on TDAs by the CFf and ACS. The combined amount
collected by the CFf and ACS has increased each year since FY 2000. The CFf and ACS both
had increases in the amounts collected during FY 2007.
                                                         CFf Amount Collected                                                         ACS Amount Collected

                                  $7,000,000



                                  $6,000,000                                                                                                                                 $2,682,982
                                                                                                                                                               $2,569,208
                                                                                                                                                  $1,941,210
  Dollars Collected (Thousands)




                                                   $2,078,191
                                  $5,000,000
                                                                                                                                    $1,669,735

                                                                                                                      $1,515,953
                                  $4,000,000
                                                                $1,442,540                 $1,275,111    $1,249,261
                                                                                                                                                 $3,906,915
                                                                             $1,159,473                                                                                      $3,661,100
                                                                                                                                                                $3,600,957
                                  $3,000,000       $3,365,075                                                                       $3,392,249
                                                                                                                      $3,083,984
                                                                                       $2,677,226     $2,746,646
                                                                $2,477,034
                                  $2,000,000
                                                                             $2,447,824


                                  $1,000,000



                                          $0
                                               FY 1998          FY 1999      FY 2000       FY 2001       FY 2002       FY 2003       FY 2004      FY 2005       FY 2006      FY 2007

  Source: Collection Report 5000-2.

Figure 10. TDAs and TDIs in the Queue. The number of taxpayers with TDIs in the Queue
increased from FYs 1998 to 2000–with significant spikes during FYs 1999 and 2000–then
decreased to remain at lower levels. However, the overall trend showed an increase in the
number of taxpayers with TDAs in the Queue during FYs 1998 through 2007. This occurred
even though, in recent years, the IRS removed from the Queue a large number of cases that were
considered to be potentially less productive than other Queue inventory (see Figure 11).
                                                       Taxpayers With TDAs                                                             Taxpayers With TDIs
  2,000,000

  1,800,000
                                                                         1,876,629
  1,600,000

  1,400,000                                              1,282,919

  1,200,000
                                                                                                                      959,075                                                 998,287
  1,000,000
                                                                                          821,188                                   838,090                     824,936
                                                                                                        767,459
             800,000                                                                                                                              716,315                 866,777
                                                                                                                                                            779,272
             600,000
                                           456,711                                                                              623,477       607,114
                                                                                                                  591,372
                                                                      537,781      542,406          514,915
             400,000
                                                       445,877
                                         407,210
             200,000

                                     0
                                          FY 1998       FY 1999        FY 2000       FY 2001         FY 2002       FY 2003         FY 2004       FY 2005       FY 2006       FY 2007

  Source: Collection Reports 5000-2 and 5000-4.


                                                                                                                                                                                 Page 26
                                     Trends in Compliance Activities Through Fiscal Year 2007




Figure 11. TDA and TDI Tax Periods Shelved or Surveyed Each Year. While the total
volume of TDA and TDI tax periods shelved or surveyed decreased by just over 47 percent from
FY 2004 to FY 2006, it increased by almost 120 percent during FY 2007. The IRS has removed
millions of TDA and TDI tax periods from the Queue inventory in recent years.
                                          TDA Tax Periods                                                              TDI Tax Periods
   8,000,000
                                                                      7,099,437
   7,000,000


   6,000,000


   5,000,000


   4,000,000
                                                                                                                                                              2,954,149
   3,000,000
                                                                                                                 2,197,884
                                                                                    1,749,590     1,875,353
                                                   1,942,929
   2,000,000                                                     1,720,683
                                                                              1,567,023                                        1,178,853     1,080,492
                                             981,255                                      1,089,580
                                                          931,011
                                   790,729                                                                1,020,503      788,083                         763,953
   1,000,000                                                                                                                            613,036
                                46,349
                       13,702
                  0
                         FY 1998         FY 1999       FY 2000      FY 2001       FY 2002       FY 2003        FY 2004       FY 2005         FY 2006        FY 2007

  Source: TIGTA analysis of Collection Reports 5000-2 and 5000-4.

Figure 12. Gap Between TDI Tax Period Receipts and Closures. The volume of TDI
receipts and closures during FY 2007 remained basically unchanged from the prior year.
However, the number of cases closed increased from the 10-year low experienced in FY 2002.
The closures shown in Figure 12 do not include the TDIs shelved shown in Figure 11.
                                     TDI Tax Period Receipts                                                     TDI Tax Period Closures

               6,000


               5,000


               4,000
   Thousands




               3,000


               2,000


               1,000


                  0
                  FY 1998          FY 1999         FY 2000       FY 2001          FY 2002       FY 2003          FY 2004           FY 2005        FY 2006          FY 2007


  Source: TIGTA analysis of Collection Report 5000-4.

                                                                                                                                                                    Page 27
                                  Trends in Compliance Activities Through Fiscal Year 2007




Figure 13. Number of TDI Tax Periods Closed, Excluding Shelved Accounts. The number
of TDI tax periods closed by both the ACS and the CFf decreased during FY 2007, after showing
an overall pattern of increasing since FY 2002. However, the number closed from the Queue and
by the Service Center Collection Branch (SCCB) has increased substantially since FY 2002.
                            ACS                                                             CFf                                                                Queue & SCCB

  3,000,000




  2,500,000
                                                                                                                                                                                              2,528,342


                                                                                                                                                                            2,237,537
  2,000,000
              1,781,093



  1,500,000                    1,412,191


                                                                                                                                                          1,356,959


  1,000,000                                                                                                                                892,306                   1,177,122          897,906
                                                 820,573                                                               795,172

                                                                     512,636                                                     561,342
                                                                                         344,824             450,042                                 769,185
                                       675,782
   500,000           587,556                               598,652
                                                                               518,749             512,136



                1,044,884          584,397          380,675             403,942             377,010             417,173             517,464             508,634          804,960           771,562
         0
                FY 1998           FY 1999          FY 2000             FY 2001             FY 2002              FY 2003            FY 2004             FY 2005           FY 2006           FY 2007

  Source: TIGTA analysis of Collection Report 5000-4.

Figure 14. Number of TDI Tax Periods Closed With Receipt of a Delinquent Tax Return.
The number of delinquent tax returns received increased for the CFf, while the number decreased
for the ACS during FY 2007. The number closed from the Queue and by the SCCB has
increased significantly since FY 2004.
                            ACS                                                             CFf                                                                Queue & SCCB
  2,000,000

  1,800,000                                                                                                                                                                                1,733,528


  1,600,000

  1,400,000                                                                                                                                                                1,289,723

  1,200,000

                                                                                                                                                           958,561
  1,000,000

   800,000                     690,125
               671,652
                                                                                                                                       576,619
   600,000                                       526,784                                                                                                              539,116
                                                                     338,979                   340,010             400,032
                                                                                                                                                                                        398,812
   400,000            298,769                                              311,776                       293,656                 318,773
                                      428,408                                            241,178                                                     455,594
                                                           358,472                                                                                                                         328,117
   200,000                                                                                                                                                               310,020
                 334,493                                                                                                            241,242             227,582
                                   210,714                              179,899             189,489             193,131
                                                    164,796
         0
                 FY 1998          FY 1999          FY 2000             FY 2001             FY 2002              FY 2003            FY 2004             FY 2005           FY 2006          FY 2007

  Source: TIGTA analysis of Collection Report 5000-4.

                                                                                                                                                                                                  Page 28
                                            Trends in Compliance Activities Through Fiscal Year 2007




Figure 15. Gap Between TDA Receipts and Closures. The gap between TDA receipts and
closures widened substantially in FY 2007 after narrowing slightly in FY 2006. However, the
number of receipts has been greater than the number of closures each year since FY 1998. The
closures shown in Figure 15 do not include the TDAs shelved shown in Figure 11.
                                                    TDA Receipts                                         TDA Closures
                            8,000

                            7,000

                            6,000
   Thousands




                            5,000

                            4,000

                            3,000

                            2,000

                            1,000

                               0
                              FY 1998     FY 1999    FY 2000    FY 2001   FY 2002    FY 2003   FY 2004      FY 2005      FY 2006   FY 2007

  Source: TIGTA analysis of Collection Report 5000-2.

Figure 16. Number of Taxpayers and Amount Owed in the Queue. Between FYs 2005 and
2007, the number of taxpayers with TDAs in the Queue inventory increased by almost
43 percent, and the amount owed on those accounts increased by almost 72 percent.
                                                  Amount Owed                                       Number of Taxpayers
                            $50                                                                                                900,000

                            $45                                                                                                850,000

                            $40                                                                                                800,000
   Amount Owed (Billions)




                            $35                                                                                                750,000
                                                                                                                                         Number of Taxpayers




                            $30                                                                                                700,000

                            $25                                                                                                650,000

                            $20                                                                                                600,000

                            $15                                                                                                550,000

                            $10                                                                                                500,000

                            $5                                                                                                 450,000

                            $0                                                                                                 400,000
                            FY 1998     FY 1999   FY 2000   FY 2001   FY 2002   FY 2003   FY 2004    FY 2005   FY 2006    FY 2007

  Source: Collection Report 5000-2.



                                                                                                                                     Page 29
                              Trends in Compliance Activities Through Fiscal Year 2007




Figure 17. Number of TDAs Closed, Excluding Shelved Accounts. The numbers of TDAs
closed by the ACS and CFf increased in FY 2007. The number in the SCCB increased slightly,
but the number in the Queue decreased–resulting in the combined decrease in FY 2007.
                           ACS                                            CFf                                            Queue & SCCB

     4,000,000

                                                                                                                                                3,492,343
     3,500,000
                                                                                                                                 3,264,944
                                                                                                                   3,052,010
                   2,814,025                                                                         2,922,041
     3,000,000
                                                                                          2,555,754
     2,500,000

                                                           2,013,562 1,975,215
     2,000,000               1,873,520       1,819,424


     1,500,000     1,327,863
                                                                                                                                                 1,226,288
                                                                                                                      1,080,980 1,097,181
                                   951,984                                                                955,887
     1,000,000                                                                               880,939
                                                 771,455        757,392       724,430
                                                                                                            469,695                   528,691      497,287
                                                                                                                         451,775
       500,000                                                                   314,124       370,217
                                                                    269,855
                         146,807       128,930        180,991

               0
                    FY 1998        FY 1999       FY 2000        FY 2001       FY 2002        FY 2003      FY 2004      FY 2005     FY 2006       FY 2007

  Source: TIGTA analysis of Collection Report 5000-2.

Figure 18. Number of TDAs Closed by Full Payment. The total number of TDAs closed by
full payment increased by almost 6 percent in FY 2007. Since FY 2002, there has been a steady
increase in the number of accounts closed by full payment by the ACS and CFf.
                         ACS                                              CFf                                            Queue & SCCB
   1,200,000

                                                                                                                                             1,017,683
   1,000,000                                                                                                                     935,117
                                                                                                                    847,537
               793,958                                                                                784,124
    800,000                                               742,563                     723,659
                             688,622        679,872
                                                                       644,301

    600,000


                398,718                                                                                               390,521      396,604        398,316
    400,000                                                                                330,934       346,650
                               275,981                                    269,139
                                              235,797       239,503                                                                   216,014       222,451
                                                                                                           193,564     185,552
    200,000                                                                     137,179       153,839
                                                                105,609
                    49,798                       64,312
                                   38,227
          0
                FY 1998        FY 1999        FY 2000       FY 2001       FY 2002          FY 2003       FY 2004      FY 2005      FY 2006       FY 2007

  Source: TIGTA analysis of Collection Report 5000-2.

                                                                                                                                                     Page 30
                          Trends in Compliance Activities Through Fiscal Year 2007




Figure 19. Liens Filed by the CFf and ACS. During the year, the total number of liens filed
increased by almost 9 percent. The number of liens filed by the ACS decreased by almost
2 percent, while those filed by the CFf increased by almost 17 percent.
                                 CFf                                                                 ACS
    800,000

    700,000

    600,000
                                                                                                                                276,247
    500,000                                                                                                       280,925
                                                                           253,053
    400,000                                                                             256,595      241,805
                                                               245,734
               99,402
    300,000                                        211,367

               283,353                  141,202
    200,000                23,180                                                                                               407,412
                                                                                                                  348,888
                                                                           291,263      277,797
                                                   214,799     236,775                               281,082
    100,000
                           144,687      146,315
          0
              FY 1998 FY 1999 FY 2000 FY 2001 FY 2002 FY 2003 FY 2004 FY 2005 FY 2006 FY 2007

  Source: Small Business/Self-Employed Division Collection Planning and Analysis, Collection National Reports.

Figure 20. Levies Issued by the CFf and ACS. The total number of levies issued by the CFf
and ACS increased dramatically from FYs 2000 through 2006, then remained at a similar level
for FY 2007. The slight decrease in the number of levies issued during FY 2007 by the ACS was
offset with an increase by the CFf.
                                CFf                                                                   ACS
  4,000,000

  3,500,000

                                                                                                                    3,496,519     3,447,375
  3,000,000
              2,029,928

  2,500,000
                                                                                                      2,535,063
  2,000,000
                                                                                         1,861,467
  1,500,000
                                                                            1,538,094
                                                               1,140,487
  1,000,000
                                                     533,405
                           397,656
                                         144,881
    500,000
              473,481 106,747                  140,675                 142,750                    208,514      245,757      309,815
                                     74,897               143,255                   168,146
         0
              FY 1998 FY 1999 FY 2000 FY 2001 FY 2002 FY 2003 FY 2004 FY 2005 FY 2006                                            FY 2007

  Source: Small Business/Self-Employed Division Collection Planning and Analysis, Collection National Reports.

                                                                                                                                       Page 31
                     Trends in Compliance Activities Through Fiscal Year 2007




Figure 21. Number of Seizures Made Each Fiscal Year. The number of seizures made
continued the upward trend that has occurred since FY 2000, but it is still only about 30 percent
of the number made in FY 1998.
  2,500
           2,259


  2,000




  1,500




  1,000

                                                                                                          676
                                                                                               590
                                                                                      512
                                                                 399      440
    500
                                                       296
                                              234
                     161
                                 74
      0
          FY 1998   FY 1999    FY 2000   FY 2001     FY 2002   FY 2003   FY 2004    FY 2005   FY 2006    FY 2007

  Source: IRS Data Book.

Figure 22. Examination Coverage of All Tax Returns – Percentage Change From FY 1998.
Examination coverage of tax returns reached a 10-year low in FY 2000, but the growth in
coverage has outpaced the growth in returns filed each year since FY 2002.
                              Returns Filed                                     Returns Examined
   20%

   10%

    0%

  -10%

  -20%

  -30%

  -40%

  -50%

  -60%

  -70%
     FY 1998   FY 1999     FY 2000    FY 2001       FY 2002    FY 2003   FY 2004    FY 2005    FY 2006     FY 2007

  Source: TIGTA analysis of IRS Data Book.


                                                                                                             Page 32
                      Trends in Compliance Activities Through Fiscal Year 2007




Figure 23. Revenue Agent Results on U.S. Individual Income Tax Returns (Form 1040),
Excluding Training Returns – Percentage Change From FY 1998. The hours per return
dropped slightly in FY 2007, while the dollars per return increased. The combined effect
resulted in an increase in dollars per hour of slightly over 15 percent.
                Hours per Return                Dollars per Hour               Dollars per Return
  300%


  250%


  200%


  150%


  100%


   50%


    0%


  -50%
     FY 1998    FY 1999    FY 2000   FY 2001   FY 2002   FY 2003   FY 2004   FY 2005   FY 2006      FY 2007

  Source: TIGTA analysis of Examination Table 37.

Figure 24. Revenue Agent Results on Corporate Income Tax Returns, Excluding Training
Returns – Percentage Change From FY 1998. The hours per return and dollars per return both
decreased during the year. The combined effect resulted in a decrease in dollars per hour of
almost 36 percent.
                Hours per Return                Dollars per Hour               Dollars per Return
   500%


   400%


   300%


   200%


   100%


     0%


  -100%
      FY 1998    FY 1999   FY 2000   FY 2001   FY 2002   FY 2003   FY 2004   FY 2005   FY 2006      FY 2007

  Source: TIGTA analysis of Examination Table 37.

                                                                                                     Page 33
                      Trends in Compliance Activities Through Fiscal Year 2007




Figure 25. Revenue Agent Results on Other Types of Tax Returns, Excluding Training
Returns – Percentage Change From FY 1998. The hours per return and dollars per return both
decreased during the year. The combined effect resulted in a decrease in dollars per hour of
almost 29 percent.
                Hours per Return                Dollars per Hour               Dollars per Return
  100%

   80%

   60%

   40%

   20%

    0%

   -20%

   -40%
      FY 1998   FY 1999    FY 2000   FY 2001   FY 2002   FY 2003   FY 2004   FY 2005   FY 2006      FY 2007

  Source: TIGTA analysis of Examination Table 37.

Figure 26. Tax Compliance Officer Results on Forms 1040, Excluding Training Returns –
Percentage Change From FY 1998. The hours per return and dollars per return both increased
slightly during the year. The combined effect resulted in an increase in dollars per hour of
almost 3 percent.
                Hours per Return                Dollars per Hour               Dollars per Return
  200%



  150%



  100%



   50%



    0%



   -50%
      FY 1998   FY 1999    FY 2000   FY 2001   FY 2002   FY 2003   FY 2004   FY 2005   FY 2006      FY 2007

  Source: TIGTA analysis of Examination Table 37.


                                                                                                     Page 34
                            Trends in Compliance Activities Through Fiscal Year 2007




Figure 27. Number of Forms 1040 Examined Face-to-Face or Through Correspondence.
The total number of face-to-face examinations of individuals increased by just over 5 percent,
and those conducted through correspondence increased by just over 8 percent in FY 2007.
Almost 83 percent of Form 1040 examinations were conducted through correspondence. Due to
a change in the source of the data, numbers for FYs 1998 and 1999 were not available.
                                Face-to-Face                                                     Correspondence
   1,400,000

   1,200,000                                                                                                               1,144,596
                                                                                                             1,055,979
                                                                                                1,007,891
   1,000,000
                                                                                     828,262
    800,000
                                                                       675,637
                                    585,753          583,323
    600,000
                    439,734
    400,000
                                                                                                            227,971       239,967
                  178,031                       160,558         173,659          168,766       191,144
    200,000                     146,003


           0
                  FY 2000         FY 2001           FY 2002       FY 2003          FY 2004      FY 2005      FY 2006       FY 2007

  Source: Analysis of Examination Closed Case Database and IRS Data Book.

Figure 28. Percentage of Forms 1040 Examined Face-to-Face or Through Correspondence.
During FY 2007, the coverage rates for face-to-face and correspondence examinations of
individual income tax returns increased. The coverage rate for examinations conducted by
correspondence has nearly doubled since FY 2002. Due to a change in the source of the data,
numbers for FYs 1998 and 1999 were not available.
                                 Face-to-Face                                                    Correspondence

   0.9%
                                                                                                               0.80%        0.85%
                                                                                                 0.77%
   0.8%

   0.7%
                                                                             0.64%
   0.6%
                                                              0.52%
                        0.46%               0.45%
   0.5%

   0.4%
          0.35%
   0.3%
                                                                                                                  0.17%      0.18%
   0.2%                                                                                          0.15%
          0.14%                             0.12%              0.13%             0.13%
                        0.11%
   0.1%

   0.0%
      FY 2000          FY 2001            FY 2002             FY 2003            FY 2004        FY 2005        FY 2006         FY 2007

  Source: Analysis of Examination Closed Case Database and IRS Data Book.

                                                                                                                                Page 35
                                               Trends in Compliance Activities Through Fiscal Year 2007




Figure 29. Examination Coverage of Forms 1040. After remaining relatively unchanged for
3 years, the number of Forms 1040 filed increased slightly in each of the last 3 fiscal years. The
growth in the number of Forms 1040 examined has slowed since FY 2005.
                                                    Returns Filed                                           Returns Examined
                                140,000                                                                                               2,800


                                120,000                                                                                               2,400




                                                                                                                                              Returns Examined (Thousands)
    Returns Filed (Thousands)




                                100,000                                                                                               2,000


                                 80,000                                                                                               1,600


                                 60,000                                                                                               1,200


                                 40,000                                                                                               800


                                 20,000                                                                                               400


                                     0                                                                                                 0
                                    FY 1998   FY 1999   FY 2000     FY 2001   FY 2002   FY 2003   FY 2004     FY 2005   FY 2006   FY 2007

  Source: TIGTA analysis of IRS Data Book.

Figure 30. Examination Coverage of Forms 1040 – Percentage Change From FY 1998.
Examination coverage of Forms 1040 reached a 10-year low in FY 2000, but the growth in
coverage has outpaced the growth in the number of Forms 1040 filed each year since FY 2002.
                                                        Returns Filed                                   Returns Examined
           40%

           30%

           20%

           10%

                           0%

   -10%

   -20%

   -30%

   -40%

   -50%

   -60%
      FY 1998                             FY 1999   FY 2000       FY 2001     FY 2002   FY 2003    FY 2004      FY 2005    FY 2006    FY 2007

  Source: TIGTA analysis of IRS Data Book.

                                                                                                                                        Page 36
                          Trends in Compliance Activities Through Fiscal Year 2007




Figure 31. Examination Coverage of Corporate Income Tax Returns – Percentage Change
From FY 1998. Overall, the number of corporate tax returns filed (excluding U.S. Income Tax
Return for an S Corporation (Form 1120S) and U.S. Income Tax Return for a Foreign
Corporation (Form 1120-F)) continued to decrease during FY 2007, while the percentage of
those tax returns examined increased. Overall, 1 of every 75 corporate tax returns was
examined.
                            Returns Filed                                        Returns Examined
     0%

   -10%

   -20%

   -30%

   -40%

   -50%

   -60%

   -70%

   -80%

   -90%

  -100%
      FY 1998     FY 1999     FY 2000       FY 2001   FY 2002      FY 2003    FY 2004   FY 2005     FY 2006    FY 2007

  Source: TIGTA analysis of IRS Data Book.

Figure 32. Percentage of Corporate Income Tax Returns Examined – Corporations With
Assets of Less Than $10 Million. During FY 2007, the overall examination coverage rate for
corporate tax returns with no balance sheet or with assets of less than $10 million increased for
all categories, except the categories of “no balance sheet” and “assets of from $5 million to
$10 million.”
   16%
                                                                                                              Assets
                                                                                                              $5M <
   14%                                                                                                        $10M

   12%                                                                                                        Assets
                                                                                                              $1M <
                                                                                                              $5M
   10%
                                                                                                              Assets
    8%                                                                                                        $250,000
                                                                                                              < $1M
    6%
                                                                                                              Assets
                                                                                                              Under
    4%                                                                                                        $250,000


    2%                                                                                                        No
                                                                                                              Balance
                                                                                                              Sheet
    0%
    FY 1998     FY 1999    FY 2000   FY 2001   FY 2002   FY 2003    FY 2004   FY 2005   FY 2006   FY 2007

  Source: TIGTA analysis of IRS Data Book.
                                                                                                                 Page 37
                                                 Trends in Compliance Activities Through Fiscal Year 2007




Figure 33. Percentage of Corporate Income Tax Returns Examined – Corporations With
Assets of $10 Million and Greater. During FY 2007, the overall examination coverage rate for
corporate tax returns with assets of $10 million and greater decreased by almost 10 percent.
However, the rate for those returns with assets of $250 million and greater decreased by almost
23 percent.
   50%
                                                                                                                                      Assets
   45%
                                                                                                                                      $250M &
                                                                                                                                      Over
   40%

   35%
                                                                                                                                      Assets
                                                                                                                                      $100M <
   30%
                                                                                                                                      $250M
   25%
                                                                                                                                      Assets
   20%
                                                                                                                                      $50M <
                                                                                                                                      $100M
   15%

   10%
                                                                                                                                      Assets
                                                                                                                                      $10M <
          5%                                                                                                                          $50M

          0%
           FY 1998                     FY 1999    FY 2000   FY 2001   FY 2002   FY 2003   FY 2004   FY 2005   FY 2006     FY 2007

  Source: TIGTA analysis of IRS Data Book.

Figure 34. Examination Coverage of Corporations With Assets of Less Than $10 Million.
The number of corporate tax returns filed with assets of less than $10 million dropped by almost
3 percent during the year, while the number of tax returns examined increased by just over
12 percent.
                                                     Returns Filed                                     Returns Examined
                               3,000                                                                                                    150


                               2,500                                                                                                    125
                                                                                                                                              Returns Examined (Thousands)
   Returns Filed (Thousands)




                               2,000                                                                                                    100


                               1,500                                                                                                    75


                               1,000                                                                                                    50


                                500                                                                                                     25


                                  0                                                                                                      0
                                 FY 1998   FY 1999     FY 2000   FY 2001   FY 2002    FY 2003   FY 2004   FY 2005       FY 2006     FY 2007

  Source: TIGTA analysis of IRS Data Book.


                                                                                                                                         Page 38
                                              Trends in Compliance Activities Through Fiscal Year 2007




Figure 35. Examination Coverage of Corporations With Assets of $10 Million and Greater.
During FY 2007, the number of corporate tax returns filed with assets of $10 million and greater
increased by almost 1 percent, while the number of returns examined decreased by almost
9 percent.
                                                     Returns Filed                                      Returns Examined
                               70                                                                                                      35


                               60                                                                                                      30




                                                                                                                                             Returns Examined (Thousands)
   Returns Filed (Thousands)




                               50                                                                                                      25


                               40                                                                                                      20


                               30                                                                                                      15


                               20                                                                                                      10


                               10                                                                                                      5


                                0                                                                                                       0
                               FY 1998   FY 1999     FY 2000       FY 2001   FY 2002   FY 2003    FY 2004    FY 2005     FY 2006   FY 2007

  Source: TIGTA analysis of IRS Data Book.

Figure 36. Examination Coverage of Forms 1120S – Percentage Change From FY 1998.
After decreasing each year since FY 1998, the percentage of Forms 1120S examined has
increased significantly since FY 2004. The increase can be partly attributed to examinations of
Forms 1120S as part of a National Research Project. Most of those examinations have been
completed.
                                                   Returns Filed                                       Returns Examined
   80%

   60%

   40%

   20%

                  0%

  -20%

  -40%

  -60%

  -80%
     FY 1998                             FY 1999     FY 2000       FY 2001   FY 2002    FY 2003    FY 2004     FY 2005     FY 2006   FY 2007

  Source: TIGTA analysis of IRS Data Book.


                                                                                                                                       Page 39
                                              Trends in Compliance Activities Through Fiscal Year 2007




Figure 37. Examination Coverage of Forms 1120S. The number of Forms 1120S filed has
increased at an average rate of 162,000 per year since FY 1998, to just over 3.9 million in
FY 2007. While the number of examinations increased during the last 3 years, only about 1 of
every 221 Forms 1120S was examined during FY 2007.
                                                     Returns Filed                                   Returns Examined
                               5,000                                                                                              50




                                                                                                                                        Returns Examined (Thousands)
                               4,000                                                                                              40
   Returns Filed (Thousands)




                               3,000                                                                                              30



                               2,000                                                                                              20



                               1,000                                                                                              10



                                  0                                                                                               0
                                 FY 1998   FY 1999    FY 2000    FY 2001   FY 2002   FY 2003   FY 2004   FY 2005   FY 2006   FY 2007

  Source: IRS Data Book.

Figure 38. Examination Coverage of Partnership Income Tax Returns. The number of
partnership tax returns filed has increased at an average rate of nearly 133,000 per year since
FY 1998, to just over 2.9 million in FY 2007. The number of returns examined increased by
25 percent during FY 2007, but only about 1 of every 241 partnership returns was examined.
                                                     Returns Filed                                   Returns Examined
                               3,500                                                                                             15


                               3,000
                                                                                                                                       Returns Examined (Thousands)


                                                                                                                                 13
   Returns Filed (Thousands)




                               2,500
                                                                                                                                 10

                               2,000
                                                                                                                                 8
                               1,500

                                                                                                                                 5
                               1,000

                                                                                                                                 3
                                500


                                  0                                                                                               0
                                 FY 1998   FY 1999    FY 2000    FY 2001   FY 2002   FY 2003   FY 2004   FY 2005   FY 2006   FY 2007

  Source: IRS Data Book.

                                                                                                                                  Page 40
                                                     Trends in Compliance Activities Through Fiscal Year 2007




Figure 39. Examination Coverage of Fiduciary Income Tax Returns. During FY 2007, the
number of income tax returns filed by estates and trusts increased slightly, and the number of tax
returns examined increased by almost 24 percent. Only about 1 of every 826 fiduciary income
tax returns was examined.
                                                            Returns Filed                                   Returns Examined
                                     4,000                                                                                               10




                                                                                                                                              Returns Examined (Thousands)
                                     3,000                                                                                               8
         Returns Filed (Thousands)




                                     2,000                                                                                               6




                                     1,000                                                                                               4




                                        0                                                                                                2
                                       FY 1998    FY 1999    FY 2000    FY 2001   FY 2002   FY 2003   FY 2004   FY 2005   FY 2006   FY 2007

  Source: IRS Data Book.

Figure 40. Examination Coverage of Employment Tax Returns. The number of
employment tax returns filed decreased by almost 1 percent this year, but the number of tax
returns examined increased by just over 36 percent. About 1 of every 543 employment tax
returns was examined.
                                                            Returns Filed                                   Returns Examined
                                     35.0                                                                                               80


                                     30.0                                                                                               70
                                                                                                                                              Returns Examined (Thousands)



                                     25.0                                                                                               60
  Returns Filed (Millions)




                                     20.0                                                                                               50


                                     15.0                                                                                               40


                                     10.0                                                                                               30


                                      5.0                                                                                               20


                                      0.0                                                                                                10
                                      FY 1998    FY 1999    FY 2000    FY 2001    FY 2002   FY 2003   FY 2004   FY 2005   FY 2006   FY 2007

  Source: IRS Data Book.

                                                                                                                                        Page 41
                                                          Trends in Compliance Activities Through Fiscal Year 2007




Figure 41. Examination Coverage of Excise Tax Returns. The number of excise tax returns
filed increased by almost 7 percent, while the number examined increased by almost 116 percent
during FY 2007.
                                                                Returns Filed                                      Returns Examined
                                           900                                                                                                   45

                                           800                                                                                                   40




                                                                                                                                                                    Returns Examined (Thousands)
                                           700                                                                                                   35
   Returns Filed (Thousands)




                                           600                                                                                                   30

                                           500                                                                                                   25

                                           400                                                                                                   20

                                           300                                                                                                   15

                                           200                                                                                                   10

                                           100                                                                                                   5

                                             0                                                                                                   0
                                            FY 1998   FY 1999   FY 2000    FY 2001   FY 2002   FY 2003   FY 2004      FY 2005    FY 2006    FY 2007

  Source: IRS Data Book.

Figure 42. Examination Coverage of Estate Tax Returns. During FY 2007, the number of
estate tax returns filed increased by just over 9 percent, and the number of returns examined
decreased by almost 13 percent. About 1 of every 13 estate tax returns was examined.
                                                                Returns Filed                                  Returns Examined
                                           140                                                                                                 70


                                           120                                                                                                 60    Returns Examined (Thousands)
               Returns Filed (Thousands)




                                           100                                                                                                 50


                                           80                                                                                                  40


                                           60                                                                                                  30


                                           40                                                                                                  20


                                           20                                                                                                  10


                                            0                                                                                                   0
                                           FY 1998    FY 1999   FY 2000   FY 2001    FY 2002   FY 2003   FY 2004     FY 2005    FY 2006    FY 2007

  Source: IRS Data Book.


                                                                                                                                                Page 42
                                                    Trends in Compliance Activities Through Fiscal Year 2007




Figure 43. Examination Coverage of Gift Tax Returns. The number of gift tax returns filed
decreased by less than 1 percent during FY 2007. However, the number of returns examined
decreased by more than 27 percent.
                                                          Returns Filed                                                      Returns Examined
                                 400                                                                                                                              3.3

                                 350                                                                                                                              3.1




                                                                                                                                                                        Returns Examined (Thousands)
     Returns Filed (Thousands)




                                 300                                                                                                                              2.8

                                 250                                                                                                                              2.6

                                 200                                                                                                                              2.3

                                 150                                                                                                                              2.1

                                 100                                                                                                                              1.8

                                 50                                                                                                                               1.6

                                  0                                                                                                                              1.3
                                 FY 1998     FY 1999      FY 2000        FY 2001       FY 2002      FY 2003        FY 2004       FY 2005     FY 2006        FY 2007

    Source: IRS Data Book.

Figure 44. Other Compliance Contacts on Forms 1040. The number of contacts for Math
Error Program cases decreased slightly during FY 2007 after remaining virtually unchanged
during the 2 prior years. The numbers of contacts for Underreporter Program and Automated
Substitute for Return system1 cases increased. The spike in the number of contacts for Math
Error Program cases in FY 2002 was the result of taxpayer confusion over the Rate Reduction
Credit. Much of the spike in FY 2004 was due to Child Tax Credit issues.
                                       14,000,000



                                       12,000,000



                                       10,000,000



                                        8,000,000



                                        6,000,000



                                        4,000,000



                                        2,000,000



                                               0
                                                    FY 1998   FY 1999     FY 2000    FY 2001    FY 2002      FY 2003   FY 2004   FY 2005   FY 2006    FY 2007

                                             FY 1998     FY 1999        FY 2000     FY 2001      FY 2002       FY 2003     FY 2004     FY 2005       FY 2006     FY 2007
            Math Error                      5,668,906   6,552,290   5,751,462       6,082,967   13,315,765     4,024,981   7,342,484   3,163,794     3,159,077   2,965,745
            Underreporter                   1,726,098   1,770,695   1,353,545       1,161,901   1,491,139      1,561,068   1,948,363   2,837,149     3,209,000   3,403,000
            ASFR                             426,495     584,142        332,427     333,770      242,637        335,032    326,407     820,845       1,253,000   1,356,000


    Source: IRS Data Book. ASFR = Automated Substitute for Return system.


1
 The IRS adjusted how these cases are captured. We used revised numbers for FYs 2003 through 2005 to be
consistent with the other fiscal years.
                                                                                                                                                                   Page 43
                     Trends in Compliance Activities Through Fiscal Year 2007




Figure 45. Other Compliance Contacts – Percentage of Form 1040 Coverage. The level of
coverage for Math Error Program cases has remained relatively unchanged since FY 2005, while
it has been increasing for Underreporter Program and Automated Substitute for Return system
cases. The Math Error Program aberrations in FYs 2002 and 2004 are explained in Figure 44.
                   FY 1998 FY 1999 FY 2000 FY 2001 FY 2002 FY2003 FY 2004 FY 2005 FY 2006 FY 2007
  Math Error        5,668,906   6,552,290   5,751,462   6,082,967   13,315,765   4,024,981   7,342,484   3,163,794   3,159,077   2,965,745
   Coverage Rate       4.63%       5.25%       4.53%       4.70%       10.22%       3.08%       5.59%       2.38%       2.36%       2.21%
  Underreporter     1,726,098   1,770,695   1,353,545   1,161,901    1,491,139   1,561,068   1,948,363   2,837,149   3,209,000   3,403,000
   Coverage Rate       1.43%       1.44%       1.08%       0.91%        1.15%       1.20%       1.49%       2.16%       2.42%       2.54%
  ASFR               426,495     584,142     332,427     333,770      242,637     335,032     326,407     820,845    1,253,000   1,356,000
   Coverage Rate       0.35%       0.48%       0.27%       0.26%        0.19%       0.26%       0.25%       0.63%       0.94%       1.01%
 Source: TIGTA analysis of IRS Data Book. ASFR = Automated Substitute for Return system.




                                                                                                                                 Page 44
                          Trends in Compliance Activities Through Fiscal Year 2007




  Figure 46. Numbers and Percentages of Individual and Business Tax Returns Examined.
  Figure 46 shows the numbers and percentages of examination coverage.

                    FY 1998     FY 1999     FY 2000   FY 2001   FY 2002   FY 2003   FY 2004     FY 2005     FY 2006      FY 2007

 Individual Returns
 Individuals
  (Forms 1040)      1,192,780   1,100,273   617,765   731,756   743,881   849,296   1,007,874   1,215,308   1,283,950    1,384,563

   Coverage Rate       0.99%       0.90%     0.49%     0.58%     0.57%     0.65%       0.77%       0.93%       0.97%        1.03%



 Business Returns
 Corporations
  Less Than
  $10 Million         41,818      28,268     18,623    14,332    14,655    13,608      7,294      17,858      17,849       20,020

   Coverage Rate       1.67%       1.16%     0.77%     0.60%     0.63%     0.58%       0.32%       0.79%       0.80%        0.92%
 Corporations
  $10 Million and
  Greater             11,830      10,537      9,212     8,718     8,443     7,125      9,523      10,829      10,578        9,644

   Coverage Rate      21.43%      19.05%    16.30%    15.08%    14.17%    12.08%      16.74%      20.02%      18.60%       16.81%
 S Corporations
  (Forms 1120S)       25,522      21,169     15,200    12,437    11,646     9,695      6,402      10,417      13,970       17,657

   Coverage Rate       1.04%       0.81%     0.55%     0.43%     0.39%     0.30%       0.19%       0.30%       0.38%        0.45%

 Partnerships         10,082       7,991      6,539     5,070     5,543     7,871      6,226       8,489       9,752       12,195

   Coverage Rate       0.58%       0.43%     0.33%     0.25%     0.26%     0.35%       0.26%       0.33%       0.36%        0.42%

 Fiduciaries           6,890       6,382      7,318     7,070     7,206     6,068      4,438       6,591       3,669        4,544

   Coverage Rate       0.21%       0.19%     0.22%     0.20%     0.18%     0.17%       0.12%       0.18%       0.10%        0.12%

 Employment           40,595      28,898     20,074    17,163    17,252    16,408     17,698      33,748      41,646       56,738

   Coverage Rate       0.14%       0.10%     0.07%     0.06%     0.06%     0.06%       0.06%       0.11%       0.13%        0.18%

 Excise               19,858      12,562     10,294     8,169     8,426     8,756     12,560      16,563      16,678       36,018

   Coverage Rate       2.48%       1.53%     1.25%     0.96%     1.03%     1.05%       1.49%       1.98%       1.99%        4.02%

 Estates              10,451       9,319      8,024     7,707     7,151     7,265      6,455       6,081       5,299        4,616

   Coverage Rate      10.22%       8.46%     6.89%     6.24%     5.84%     6.38%       7.41%       8.20%       9.66%        7.70%

 Gift                  2,010       2,369      2,097     2,005     1,899     1,855      1,979       2,125       2,051        1,490

   Coverage Rate       0.79%       0.91%     0.72%     0.65%     0.63%     0.66%       0.69%       0.81%       0.77%        0.56%
Source: TIGTA analysis of IRS Data Book




                                                                                                                        Page 45
                  Trends in Compliance Activities Through Fiscal Year 2007




                                                                           Appendix VI

         Prior Treasury Inspector General for Tax
        Administration Compliance Trends Reports

Management Advisory Report: Evaluation of Reduction in the Internal Revenue Service’s
Compliance Activities (Reference Number 2000-30-075, dated May 2000).
Management Advisory Report: Tax Return Filing and Examination Statistics (Reference
Number 2001-30-175, dated September 2001).
Management Advisory Report: Analysis of Trends in Compliance Activities Through Fiscal
Year 2001 (Reference Number 2002-30-184, dated September 2002).
Trends in Compliance Activities Through Fiscal Year 2002 (Reference Number 2003-30-078,
dated March 2003).
Trends in Compliance Activities Through Fiscal Year 2003 (Reference Number 2004-30-083,
dated April 2004).
Trends in Compliance Activities Through Fiscal Year 2004 (Reference Number 2005-30-055,
dated March 2005).
Trends in Compliance Activities Through Fiscal Year 2005 (Reference Number 2006-30-055,
dated March 2006).
Trends in Compliance Activities Through Fiscal Year 2006 (Reference Number 2007-30-056,
dated March 27, 2007).




                                                                                      Page 46
